Department of Homeland Security
   Ofﬁce of Inspector General

             The State of Maryland's Management
             of State Homeland Security Program
              and Urban Areas Security Initiative
             Grants Awarded During Fiscal Years
                      2005 through 2007




OIG-10-116                                    September 2010
                                                            Office ofInspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security


                                         Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part ofour oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

The attached report presents the results of the audit of the State of Maryland's
Management of State Homeland Security Program and Urban Areas Security Initiative
Grants awarded during Fiscal Years 2005 through 2007. We contracted with the
independent public accounting firm Regis & Associates, PC to perform the audit. The
contract required that Regis & Associates, PC perform its audit according to generally
accepted government auditing standards. Regis & Associates, PC's report identifies five
reportable conditions where the State of Maryland's management of the grant funds could
be improved, resulting in five recommendations addressed to the Assistant Administrator,
Grant Programs Directorate, Federal Emergency Management Agency. Regis &
Associates, PC is responsible for the attached auditor's report dated March 8, 2010, and
the conclusions expressed in the report.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                      ~Y/~S7
                                      X~e L. Richards
                                      Assistant Inspector General for Audits
  MANAGEMENT CONSULTANTS &
 & 

 CERTIFIED PUBLIC ACCOUNTANTS





March 8, 2010


Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W., Building 410
Washington, DC 20528

Dear Ms. Richards,

Regis & Associates, PC performed an audit of the State of Maryland’s management of
the Department of Homeland Security’s State Homeland Security Program and Urban
Areas Security Initiative grants for Fiscal Years 2005 through 2007. The audit was
performed in accordance with Contract No. TPD-FIG-BPA-07-0014; Task Order 0072
dated September 27, 2008. This report presents the results of the audit, and includes
recommendations to help improve the State of Maryland’s management of the audited
State Homeland Security Program and Urban Areas Security Initiative grants.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2007 revision. The audit was a performance audit, as defined by Chapter 1 of the
Standards, and included a review and report on program activities with a compliance
element. Although the audit report comments on costs claimed by the State of Maryland,
we did not perform a financial audit, the purpose of which would be to render an opinion
on the State of Maryland’s financial statements, or the funds claimed in the Financial
Status Reports submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions or need further assistance, please contact us at (202) 296-7101.


Sincerely,



Peter R. Regis, CPA
Partner
Regis & Associates, PC




   1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1
 


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................. 6 


     State Grants Management Practices Were Generally Effective, But Some

         Improvements Needed ........................................................................................... 6 


     Strategic Planning Process Was Not Comprehensive .................................................. 7 

     Recommendation ....................................................................................................... 12 

     Management Comments and Auditor’s Analysis ...................................................... 13 


     FY 2005 Financial Status Reports Were Inaccurate .................................................. 14 

     Recommendations ...................................................................................................... 15 

     Management Comments and Auditor’s Analysis ...................................................... 16 


     Quarterly Financial Status Reports Were Not Submitted Timely ............................. 16 

     Management Comments and Auditor’s Analysis ...................................................... 18 


     Subgrantee Monitoring Requirements Not Enforced or Documented ....................... 18 

     Recommendation ....................................................................................................... 20 

     Management Comments and Auditor’s Analysis ...................................................... 20 


     Reimbursements Not Supported by Invoices ............................................................. 21 

     Recommendation ....................................................................................................... 22 

     Management Comments and Auditor’s Analysis ...................................................... 22 


Appendices
     Appendix A:           Purpose, Scope, and Methodology ..................................................... 23 

     Appendix B:           Management Comments to the Draft Report ..................................... 26 

     Appendix C:           Organization Chart ............................................................................. 32 

     Appendix D:           Report Distribution ............................................................................ 33 


Abbreviations
     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency 

     FY                    Fiscal Year            

     OIG                   Office of Inspector General 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                      Regis & Associates, PC completed an audit of the State of
                      Maryland’s management of State Homeland Security Program and
                      Urban Areas Security Initiative grants awarded during Fiscal Years
                      2005 through 2007. The objectives of the audit were to determine
                      whether the State of Maryland distributed and spent State
                      Homeland Security Program and Urban Areas Security Initiative
                      grant funds strategically, effectively, and in compliance with laws,
                      regulations, and guidance. The audit included a review of
                      approximately $39.8 million in State Homeland Security Program
                      grants and $33 million in Urban Areas Security Initiative grants
                      included in the approximately $99.2 million of Homeland Security
                      grants awarded by the Federal Emergency Management Agency to
                      the State of Maryland.

                      Overall, the State Administrative Agency did an efficient job of
                      administering the program and distributing grant funds. Funding
                      was linked to plans and core priorities identified by the Governor’s
                      Office of Homeland Security, and funds and resources were
                      distributed based on those priorities. Reasonable methodologies
                      were used for assessing threats and vulnerabilities and response
                      capability. Grants were generally administered in compliance with
                      applicable laws, regulations, and guidance.

                      However, improvements were needed in the State of Maryland’s
                      management of the State Homeland Security Program grants in the
                      following areas: strategic planning and performance measurement,
                      submitting accurate and timely financial status reports, subgrantee
                      monitoring, and support for expenditures submitted for
                      reimbursement. Five recommendations were made to the Federal
                      Emergency Management Agency, which, if implemented, should
                      help strengthen program management, performance, and oversight.
                      Federal Emergency Management Agency officials verbally
                      concurred with the recommendations. State officials disagreed
                      with one recommendation, agreed “with comment” on another, and
                      provided a written response to all recommendations, included as
                      Appendix B.




          The State of Maryland’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                              Page 1 

Background
                    The Homeland Security Grant Program is a federal assistance grant
                    program administered by the U.S. Department of Homeland
                    Security (DHS), Grant Programs Directorate, within the Federal
                    Emergency Management Agency (FEMA). The current Grant
                    Programs Directorate, hereafter referred to as FEMA, began with
                    the Office of Domestic Preparedness, which was transferred from
                    the Department of Justice to DHS in March 2003. The Office of
                    Domestic Preparedness was subsequently consolidated into the
                    Office of State and Local Government Coordination and
                    Preparedness, which, in part, became the Office of Grants and
                    Training, which subsequently became part of FEMA.

                    Although the grant program was transferred to DHS, applicable
                    Department of Justice grant regulations and legacy systems were
                    still used, as needed, to administer the program. For example,
                    through Fiscal Year (FY) 2008 the Office of Justice Programs’
                    Grants Management System was used to receive grantee
                    applications and to administer the award and reporting processes.
                    Also, prior to the transfer, the State Administrative Agency entered
                    payment data into the Office of Justice Programs’ Phone Activated
                    Paperless Request System, which was a drawdown payment
                    system for grant funds. That payment system was replaced in
                    May 2007 by FEMA’s Payment and Reporting System, which
                    allows grantees to make payment requests and complete and
                    transmit their quarterly Financial Status Reports online.

                    Homeland Security Grant Program

                    The Homeland Security Grant Program provides federal funding to
                    help states and local agencies enhance their capabilities to prevent,
                    deter, respond to, and recover from threats or acts of terrorism.
                    The program encompasses several interrelated federal grant
                    programs that together fund a range of preparedness activities
                    including planning, organization, equipment purchase, training,
                    and exercises, as well as management and administrative costs.
                    Depending on the fiscal year, the program included some or all of
                    the following:

                    �	 State Homeland Security Program provides financial
                       assistance directly to each of the states and territories to
                       prevent, respond to, and recover from all-hazards. The
                       program supports the implementation of the State Homeland


        The State of Maryland’s Management of State Homeland Security Program and 

     Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                            Page 2 

                   Security Strategy to address the identified needs for planning,
                   equipment, training, and exercises.

               �	 Urban Areas Security Initiative provides financial assistance
                  to address the unique planning, equipment, training, and
                  exercise needs of high-risk urban areas; and to assist them in
                  building an enhanced and sustainable capacity to prevent,
                  respond to, and recover from threats or acts of terrorism.
                  Allowable costs for the urban areas are consistent with the
                  State Homeland Security Program, and funding is expended
                  based on the Urban Area Homeland Security Strategies.

               �	 Law Enforcement Terrorism Prevention Program
                  provides law enforcement communities with funds to support
                  the following prevention activities: information sharing to
                  preempt terrorist attacks; target hardening to reduce
                  vulnerability of selected high value targets; recognition and
                  mapping of potential or developing threats; counterterrorism
                  and security planning; interoperable communications;
                  interdiction of terrorists before they can execute a threat; and
                  intervention activities that prevent terrorists from executing a
                  threat. These funds may be used for planning, organization,
                  training, exercises, and equipment.

               �	 Citizen Corps Program is the department’s grass-roots
                  initiative to involve all citizens actively in hometown security,
                  through personal preparedness, training, and volunteer service.
                  Funds support Citizen Corps Councils with efforts to engage
                  citizens in preventing, preparing for, and responding to all
                  hazards, including planning and evaluation, public education
                  and communication, training, participation in response
                  exercises, providing proper equipment to citizens with a role in
                  response, and management of Citizen Corps volunteer
                  programs and activities.

               �	 Metropolitan Medical Response System Program supports
                  jurisdictions in enhancing and sustaining integrated,
                  systematic, mass casualty incident preparedness to respond to
                  mass casualty events during the first hours of a response. This
                  includes the planning, organizing, training, and equipping
                  concepts, principles, and techniques, which enhance local
                  jurisdiction’s preparedness to respond to the range of mass
                  casualty incidents – from chemical, biological, radiological,
                  nuclear, and explosive events to epidemic outbreaks, natural
                  disasters, and large-scale hazardous materials incidents.

   The State of Maryland’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007

                                      Page 3
               �   Emergency Management Performance Grant Program
                   funds are used to support comprehensive emergency
                   management at the state and local levels and to encourage the
                   improvement of mitigation, preparedness, response, and
                   recovery capabilities for all hazards. DHS is responsible for
                   leading and supporting the nation in a comprehensive, risk-
                   based, all-hazards emergency management program, and these
                   performance grant funds are a primary means of ensuring the
                   development and maintenance of such a program. Funds may
                   also be used to support activities that contribute to a state or
                   jurisdiction’s capacity to manage consequences of acts of
                   terrorism.

               State Administrative Agency

               State governors appoint a State Administrative Agency to manage
               and administer Homeland Security grants and to serve as the
               pass-through entity for funds sub-granted to other state
               government agencies, regional, or local recipients. The
               Maryland Emergency Management Agency is the State
               Administrative Agency designated to provide administrative
               oversight for the State Homeland Security Program and Urban
               Areas Security Initiative grants. The Governor’s Office of
               Homeland Security is the Homeland Security Advisor for the
               State of Maryland and is responsible for formulating the
               Homeland Security strategy and setting resulting policy for the
               State of Maryland.

               The Maryland Emergency Management Agency was created by
               Article 14 of the Annotated Code of Maryland as an agency
               within the Maryland Military Department. This Article also
               authorized the political subdivisions of the State of Maryland to
               create emergency management offices of their own. The State
               of Maryland is comprised of 26 local emergency management
               jurisdictions, which include 23 counties and the cities of
               Annapolis, Baltimore, and Ocean City. The Maryland
               Emergency Management Agency is responsible for
               coordinating the State of Maryland’s civil defense and response
               to any major emergency or disaster, supporting local
               governments as needed or requested, and coordinating
               assistance with FEMA and other federal partners.

               While the Maryland Emergency Management Agency is one of
               several agencies within the Maryland Military Department and
               under the authority of the Adjutant General, during emergencies

   The State of Maryland’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007

                                      Page 4
               the Governor is given emergency powers to assume direct
               authority over the Maryland Emergency Management Agency.
               In addition, in the event of an emergency, the Director of
               Maryland Emergency Management Agency reports directly to
               the Governor. The Maryland Emergency Management Agency’s
               organizational structure is shown in Appendix C to this report.

               Grant Funding

               The State of Maryland received approximately $99.2 million in
               funds from the Homeland Security Grant Program during
               FYs 2005 through 2007. Of this amount, $39.8 million was from
               the State Homeland Security Program and $33 million was from
               Urban Areas Security Initiative grants.

               The State of Maryland utilizes the grant funds primarily to aid
               public safety personnel in acquiring specialized training, exercises,
               and equipment necessary to safely respond to and manage all-
               hazard incidents. Table 1 identifies a breakdown of the grant funds
               by fund activity and year. Note that not all funded activities were
               part of the Homeland Security Grant Program during each of the
               fiscal years.
                                             Table 1

                       Maryland Homeland Security Grant Program Awards
                                 Fiscal Years 2005 through 2007

                                         Grant Programs ($000)
              Funded Activity            FY 2005         FY 2006     FY 2007         Total
               State Homeland
               Security Program            $19,866         $8,120      $11,800       $39,786
               Urban Areas
               Security Initiative          11,438          9,670        11,910          33,018
               Law Enforcement
               Terrorism
               Prevention Program             7,224         5,910         8,430          21,564
               Citizen Corps
               Program                             252        359           272            883
               Emergency
               Management                                     Not          Not
               Performance Grant              3,242      Included     Included            3,242
               Metropolitan
               Medical Response
               System Program                      228        232           258            718
                               Total       $42,250        $24,291      $32,670       $99,211


   The State of Maryland’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                       Page 5
 

                     Regis & Associates, PC completed an audit of the State of
                     Maryland’s management of DHS’ FY 2005 through FY 2007 State
                     Homeland Security Program and Urban Areas Security Initiative
                     grants. The objectives of the audit were to determine whether the
                     State Administrative Agency (1) effectively and efficiently
                     implemented the programs, (2) achieved the goals of the programs,
                     and (3) spent funds in accordance with grant requirements. The
                     goal of the audit was to identify deficiencies, problems, and
                     solutions that could help the State of Maryland better prevent,
                     prepare for, and respond to, terrorist attacks and other hazards, as
                     applicable to the goals of the programs.

                     Nine researchable questions provided by the DHS-OIG established
                     the framework for the audit. These researchable questions were
                     related to the State Administrative Agency’s planning,
                     management, and evaluation of grant activities. Appendix A to
                     this report provides additional details on the purpose, scope, and
                     methodology of this audit, including the nine researchable
                     questions.


Results of Audit
     State Grants Management Practices Were Generally Effective,
     But Some Improvements Needed
            Overall, the State Administrative Agency did an efficient job of managing
            over $39 million in State Homeland Security Program and $33 million in
            Urban Areas Security Initiative grant funds received during FYs 2005
            through 2007. Funding was linked to plans and core priorities identified
            by the Governor’s Office of Homeland Security, and funds and resources
            were distributed based on those priorities. The State of Maryland also
            conducted a statewide comprehensive review to assess its capabilities.
            The State of Maryland used reasonable methodologies for assessing
            threats through data gathered by the Maryland Coordination and Analysis
            Center, annual assessments of local jurisdiction vulnerabilities, and the
            State Tips Hotline. With the exception of the FY 2005 financial status
            reports, grants were generally administered in compliance with applicable
            laws, regulations, and guidance.

            However, we noted that improvements were needed in the State of
            Maryland’s management of the State Homeland Security Program grants
            in the following areas: strategic planning and performance measurement,
            timely and accurate submission of financial status reports to FEMA,


         The State of Maryland’s Management of State Homeland Security Program and 

      Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                             Page 6 

       monitoring of subgrantees, and support for expenditures submitted for
       reimbursement.


Strategic Planning Process Was Not Comprehensive
       The State of Maryland’s Homeland Security Strategy was limited in its
       effectiveness in enhancing emergency management. Specifically:

       �	   The strategy was outdated,
       �	   The strategy lacked fully measureable goals and objectives,
       �	   The process to incorporate local input required improvement, and
       �	   The process to collect and analyze performance data required updating
            and refinement.

       This occurred because there was no adequate process in place for
       developing an effective State of Maryland Homeland Security Strategy for
       emergency management. As a result, the State Administrative Agency
       was unable to systematically measure and report progress toward
       achieving its program goals, and to update the State Homeland Security
       Strategy as priorities changed.

                State of Maryland’s Homeland Security Strategy Is Outdated

                The State of Maryland has not revised its State Homeland Security
                Strategy even though the State’s priorities have changed. The
                State Administrative Agency’s initial State of Maryland’s
                Homeland Security Strategy was developed in 2003 and included
                17 broad-based goals, 53 objectives, and multiple implementation
                steps with target dates for achieving the objectives. Our review
                noted that as of 2007, the State of Maryland’s Homeland Security
                Strategy, approved by FEMA, included the same 17 goals,
                53 objectives, and implementation steps that were developed and
                included in the 2003 State Homeland Security Strategy. However,
                during this period there were changes in the States’ priorities that
                were not reflected in the document.

                Specifically, according to State Administrative Agency officials,
                the State of Maryland’s Homeland Security Program began to
                transition in 2006 from the FEMA-approved strategy to the 12
                Core Priorities established by the newly elected Governor. Two of
                the Governor’s core priorities, to have a robust closed circuit
                television network and to develop a bio-surveillance system in
                every jurisdiction in the State of Maryland, were not reflected in
                the current FEMA-approved strategy, thereby requiring an update.

    The State of Maryland’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                        Page 7
               While the Governor’s 12 Core Priorities have become the State’s
               strategic focus to address homeland security, the 12 priorities have
               not been developed into a formal strategic plan. According to
               State Administrative Agency officials, the Governor’s 12 Core
               Priorities have not been vetted through the FEMA approval
               process.

               In 2008, the Governor’s Office of Homeland Security conducted a
               comprehensive assessment of the State of Maryland’s emergency
               preparedness. The October 2008 report, A Report to Provide an
               Assessment of Emergency Preparedness in the State of Maryland,
               found that,

                        “The State of Maryland Office of the Governor
                        has recently outlined the twelve priorities for
                        homeland security in the State Homeland
                        Security Strategy….This strategy is meant to
                        encompass both emergency management and
                        homeland security. However, the State
                        Homeland Security Strategy has not in turn
                        translated to the development of a strategic plan
                        for emergency management by the Maryland
                        Emergency Management Agency.”

               We nevertheless noted during our site visits to subgrantee
               locations, that local officials regarded the Governor’s 12 Core
               Priorities as the strategic focus for the State of Maryland.

               State of Maryland’s Homeland Security Strategy Lacked Fully
               Measurable Goals and Objectives

               Neither the FEMA-approved State of Maryland’s Homeland
               Security Strategy, nor the Governor’s 12 Core Priorities were
               comprehensive with specific, measurable, results-oriented, and
               time-limited objectives. For example, we identified the following
               conditions in the 2007 State of Maryland Homeland Security
               Strategy:




   The State of Maryland’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                       Page 8 

                              Examples from FEMA-Approved Strategy
             Goal                             Objective                            Deficiency
Improve information           Ensure secure and non-secure threat-       The objective is not:
sharing at all levels and     based information sharing by developing
facilitate the ready          a state information security program and   � Specific
identification and            classified information distribution        � Measureable
apprehension of potential     process.                                   � Time-limited
terrorists
Strengthen defenses to        Through the Health and Medical             The objective is not:
protect the Citizens of       Subcommittee, coordinate public health,
Maryland against              emergency medical services, and            �   Specific
catastrophic chemical,        hospitals in preparation for chemical,     �   Measureable
biological, radiological,     biological, radiological, nuclear, and     �   Time-limited
nuclear, and explosive        explosive device terrorist threats and     �   Results-oriented
device threats                recognize, evaluate, and control
                              chemical, biological, radiological,
                              hazards to protect human health and the
                              environment.

                              Ensure preparedness and capacity for       The objective is not:
                              response to chemical, biological,
                              radiological, nuclear, and explosive       �   Specific
                              terrorist threats.                         �   Measureable
                                                                         �   Time-limited
                                                                         �   Results-oriented

                              Enhance statewide detection capabilities   The objective is not:
                              and institute a statewide plan for
                              regional Chemical Biological               � Specific
                              Radiological Nuclear Explosive             � Measureable
                              detection.                                 � Time-limited

                              Implement a statewide health and           The objective is not:
                              medical surge plan.
                                                                         � Specific
                                                                         � Measureable
                                                                         � Time-limited

                              Enhance dispensing and distribution        The objective is not:
                              modalities.
                                                                         �   Specific
                                                                         �   Measureable
                                                                         �   Time-limited
                                                                         �   Results-oriented




              The State of Maryland’s Management of State Homeland Security Program and 

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                                  Page 9
 

                           Examples from Governor’s 12 Core Priorities
         Core Goal                          Objectives                            Deficiency
Intelligence and            Integrate existing law enforcement and      The objective is not:
Information Sharing         other data systems relevant to homeland
                            security in order to transmit and receive   �   Measureable
                            information from the field and share that   �   Time-limited
                            information on a real time basis.

                            State and local first responders should     The objective is not:
                            work together to develop a statewide
                            information sharing model that uses         �   Measureable
                            common information sharing standards,       �   Time-limited
                            produces products useful to field
                            personnel as well as executive decision
                            makers, and work on a real time basis.


                         The State and Urban Area Homeland Security Strategy, Guidance
                         on Aligning Strategies with the National Preparedness Goal,
                         (Strategy Guidance) states that the primary determinants of an
                         overall successful strategy are the quality of the goals and
                         performance against those goals. As demonstrated in the examples
                         noted above, the objectives included in the State’s Strategy are too
                         broad to determine whether or when the objectives have been
                         achieved. Generally, the objectives were not:

                         �	 Specific, detailed, and focused in helping to identify what was
                            to be achieved and accomplished;
                         �	 Measurable or quantifiable to provide a standard for
                            comparison, and identify a specific achievable result;
                         �	 Results-oriented to identify a specific outcome; and,
                         �	 Time-limited to identify a target date when the objectives
                            would be achieved.

                         The Strategy Guidance also states that the State Administrative
                         Agency or Urban Area Working Group should assess the strategy’s
                         objectives to determine whether the measures are meaningful, that
                         the measurement methodology is sound, and the measures can be
                         verified with reliable data.

                         Process to Update Strategy or Incorporate Local Input
                         Requires Improvement

                         The State does not have an adequate process to conduct a review
                         and update of the State of Maryland’s Homeland Security



             The State of Maryland’s Management of State Homeland Security Program and
          Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007

                                                Page 10
               Strategy’s goals and objectives, or to ensure that local input is
               incorporated into the strategy.

               The State Administrative Agency conducts annual regional
               workshops as a part of the needs assessment phase of the strategic
               planning process. Subgrantees complete a survey to identify their
               local needs and capabilities. However, the needs assessment phase
               culminates in each jurisdiction’s “wish list” for Homeland Security
               projects without regard to budget constraints or regional and State
               of Maryland needs. According to State Administrative Agency
               officials, the purpose of the needs assessment is to provide input
               into the grant application process and not to update the State of
               Maryland’s Homeland Security Strategy. Identifying the needs of
               the local jurisdictions is only the starting point in the strategic
               planning process. An effective strategic planning process should
               develop and implement the strategic plan, include an annual
               assessment of capabilities, and incorporate periodic updates into
               the strategic plan.

               Process to Collect or Analyze Performance Data Requires
               Updating and Refinement

               The State Administrative Agency does not have an adequate
               process to collect, measure, and analyze performance data related
               to the accomplishment of the goals and objectives outlined in the
               State of Maryland’s Homeland Security Strategy. In addition, the
               goals and objectives do not include performance measures that
               enable the State Administrative Agency to track progress made in
               achieving the goals.

               We noted during our review that the State Administrative Agency
               monitors subgrantees’ homeland security activities in support of
               the State’s Strategy; however, data related to progress made for
               ongoing projects or completed projects is not collected or
               documented. According to State Administrative Agency officials,
               project progress is based on the status of expenditures and is
               considered complete when the subgrantee has expended the funds
               awarded. State officials further stated that metrics to measure the
               accomplishment of goals in the State of Maryland’s Homeland
               Security Strategy had not been developed in part due to a lack of
               guidance from FEMA. However, the Code of Federal Regulation
               28 §66.40, Monitoring and reporting program performance,
               requires grantees to report on progress and deviations in
               performance when comparing actual accomplishments to the
               established objectives.

   The State of Maryland’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007

                                      Page 11
               Without a process to collect and analyze performance data, the
               State Administrative Agency was not able to provide adequate
               documentation demonstrating the progress that has been made
               toward achieving the State of Maryland’s homeland security goals.

               An assessment report issued in October 2008 by another contractor
               on the State of Maryland’s emergency preparedness conveyed
               results similar to our audit finding. The report stated that there is
               currently no strategic planning process for emergency management
               in the State of Maryland. In response to the report, the Governor’s
               Office issued a statement that corrective action has been initiated
               to update the State of Maryland’s Homeland Security Strategy.
               However, this is only the first step in addressing these concerns.

               The success of the State of Maryland’s Homeland Security
               program is at risk because of its uncoordinated and non-
               strategically planned process. Furthermore, without an updated
               Strategy with measureable and meaningful objectives, the State is
               at risk of not providing a comprehensive strategic plan that
               prevents, responds to, and provides for recovery from major
               emergency events.

      Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Maryland Emergency Management
               Agency to:

               Recommendation #1: Implement a strategic planning process
               that:

               �	 Establishes a formal process to periodically update the strategic
                  plan to include new priorities,
               �	 Incorporates specific, measurable and results-oriented
                  objectives into the updated strategy, with each objective
                  including a performance measure to track progress for
                  achieving the goals,
               �	 Incorporates local input into the strategy, and
               �	 Ensures that appropriate performance data are collected,
                  measured, and analyzed to demonstrate progress towards
                  achieving goals and objectives.




   The State of Maryland’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                      Page 12 

      Management Comments and Auditor’s Analysis
               At the exit conference, the FEMA Grant Programs Directorate
               officials orally concurred with this finding and recommendation.
               The Maryland Emergency Management Agency agreed with this
               finding in writing, but requested that we change the tone of the
               report, which we have done based on mutually agreed suggested
               language. The State agency did not agree with all the
               recommended actions related to this finding.

               Specifically, with regard to the recommendation to establish a
               formal process to periodically update the strategic plan to include
               new priorities, the Maryland Emergency Management Agency
               agreed and stated that it has submitted an updated strategy to
               FEMA for review on November 4, 2009. The strategy was
               approved by FEMA on November 19, 2009.

               With regard to the recommendation to incorporates specific,
               measurable, and results-oriented objectives into the updated
               strategy, and include performance measures to track progress for
               achieving the goals, the Maryland Emergency Management
               Agency agreed and stated that it has begun to link goals with the
               National Priorities as established by FEMA. However, it said in its
               comments that it is unrealistic to impose upon it standards and
               expectations not yet fully defined at the federal level, nor dictated
               within the implementation program guidance.

               The Maryland Emergency Management Agency did not agree with
               the part of the recommendation to establish a process to
               incorporate local input into the strategy. The Maryland Emergency
               Management Agency said that the state maintains a continuous
               dialogue with its sub-grantees to ensure funds are used to address
               common goals and objectives. It further said that as part of the
               homeland security grant application process, local jurisdictions are
               surveyed to identify local needs and propose remedial spending
               plans. While the State’s response discussed obtaining input from
               local jurisdictions, it did not address how this input would be used
               to update the State’s Homeland Security Strategy.

               The Maryland Emergency Management Agency also did not agree
               with the part of the recommendation to ensure that appropriate
               performance data are collected, measured, and analyzed to
               demonstrate progress towards achieving goals and objectives. The
               Maryland Emergency Management Agency said that the state
               currently meets all the federal data reporting requirements for the

   The State of Maryland’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007

                                      Page 13
                grants. Despite this claim, the State is still responsible for showing
                progress towards accomplishing its goals, and cannot do so without
                collection, measuring, and analyzing appropriate performance data.

                The State’s responses will not fully address the intent of this
                recommendation. The recommendation will remain open until it is
                fully implemented. Within 90 days the Administrator, Federal
                Emergency Management Agency, needs to outline corrective
                actions and a plan to implement the actions in response to the
                recommendation.


FY 2005 Financial Status Reports Were Inaccurate
       Information on federal and recipient outlays in the Homeland Security
       Grant Financial Status Reports for FY 2005 did not agree with the State’s
       accounting system records. We compared the amounts stated in the
       Financial Status Reports to accounting records at the summary and detail
       levels, and identified inaccuracies.

       The FY 2005 Grant Guidance requires grantees to report obligations and
       expenditures on a quarterly basis through the Financial Status Report.
       A Financial Status Report must be submitted for every quarter an award is
       active, including partial calendar quarters, as well as for periods where no
       grant activity occurs. In addition, Code of Federal Regulation Title 28
       § 66.20, Standards for financial management systems, requires grantees to
       maintain accurate, current, and complete disclosure of the financial results
       of financially assisted activities, in accordance with the financial reporting
       requirements of the grant or sub-grant.

       Also, according to Office of Management and Budget Circular A-123,
       monitoring the effectiveness of internal control should occur in the normal
       course of business. In addition, periodic reviews, reconciliations, or
       comparisons of data should be included in the regularly assigned duties of
       personnel. Periodic assessments should be integrated as part of
       management’s continuous monitoring of internal control, which should be
       ingrained in the agency’s operations.

       For FY 2005, the Emergency Management Performance Grant program
       had a 50% federal and 50% state cost-share matching requirement. In its
       FY 2005 financial status reports, the State reported more than sufficient
       funds for its cost-share match. However, the State erroneously included
       the FY 2006 cost-share match with the FY 2005 cost-share match,
       resulting in a $1.0 million deficit in cost-share, as shown in Table 2.


    The State of Maryland’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                       Page 14
                                                Table 2

                    FY 2005 Emergency Management Performance Grant
                           State Matching Share Underreported
      Financial Status Report state cost-share match                       $4,097,489
      FY 2006 Emergency Management Performance Grant
      state cost-share match erroneously included in FY 2005               $1,870,207
      amount
      Actual FY 2005 cost share match                                      $2,227,282
      Emergency Management Performance Grant (and
                                                                           $3,242,045
      therefore state matching requirement)
      FY 2005 Cost Share Deficit                                           $1,014,763


      According to Maryland Military Department officials, the State
      Administrative Agency’s inability to accurately report the expenditures for
      the homeland security grants program was in part due to problems with the
      State Administrative Agency’s internal controls over the financial
      administration of the Homeland Security Grant Programs.

      Specifically, in 2006, the responsibility for program administration and
      fiscal management over the Homeland Security Grants Program was
      transferred from the Maryland Military Department’s Fiscal Services
      Division to the Maryland Emergency Management Agency’s Grants
      Management Program Office. The individual given responsibility for
      financial reporting over the program did not have an understanding of the
      financial reporting requirements. This transfer of the fiscal responsibilities
      also eliminated adequate segregation of duties to ensure accurate
      accounting and reporting of the financial activities of the Homeland
      Security Grant Programs. At that time, the Grants Management Program
      Office was given responsibility to record grant program activities; prepare,
      authorize, and execute drawdowns; and perform reconciliations.
      Consequently, drawdowns were not independently reconciled, reviewed,
      and properly approved prior to being executed. Independent reconciliation
      would likely have identified the erroneous cost-share match.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Maryland Emergency Management
               Agency to:

               Recommendation #2: Determine the appropriateness of the State
               matching share amount for the FY 2005 Emergency Management
   The State of Maryland’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007

                                      Page 15
                Performance Grant. If at the end of the performance period, the
                State is unable to substantiate the appropriateness of its matching
                share, the State should reimburse FEMA for any federal funds
                drawn down in excess of the State’s matching share.

                Recommendation #3: Submit corrected Financial Status Reports
                for the FY 2005 and FY 2006 Homeland Security Grant Program.

       Management Comments and Auditor’s Analysis
                At the exit conference, the FEMA Grant Programs Directorate
                officials verbally concurred with the finding, but did not concur
                with recommendation #2 as written in the draft report. FEMA
                officials said at the exit conference that the issue of questioned
                amounts will not arise until the end of the performance period,
                when the final Financial Status Report is submitted by the state.
                FEMA officials concurred with revised recommendation #2, and
                agreed that the State should submit corrected reports for FY 2005
                and FY 2006.

                In written comments, the Maryland Emergency Management
                Agency did not agree with the finding and recommendations #2
                and #3. The State said that it has reviewed the appropriateness of
                its matching share and determined that it exceeded its matching
                requirement. The state said it has submitted an amended Financial
                Status Report to FEMA for FY 2005.

                If validated by FEMA, the actions the state reported it has taken
                will resolve the recommendations. Within 90 days, the
                Administrator, Federal Emergency Management Agency, needs to
                outline corrective actions and a plan to implement the actions in
                response to the recommendations.


Quarterly Financial Status Reports Were Not Submitted Timely
       The Maryland Emergency Management Agency did not comply with the
       reporting requirements of the Homeland Security Grant Program, which
       requires that Financial Status Reports be filed in a timely manner. We
       identified six Financial Status Reports for Fiscal Years 2005 through 2007
       that were not submitted within the required filing period, detailed in
       Table 3 below.




    The State of Maryland’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                       Page 16
                                                Table 3

                        Maryland Homeland Security Grant Awards
                             Fiscal Years 2005 through 2007

                        Untimely Quarterly Financial Status Reports

                                     Date Financial         Date Financial
          Grant       Calendar       Status Reports         Status Report         No. of
          Year        Quarter             Due               was Submitted        Days Late
          2005        Q1 2007          05/15/2007             6/28/2007             59
           2005        Q1 2008          05/15/2008         Never Submitted
           2006        Q3 2006          10/30/2006            11/22/2006               23
           2006        Q1 2007          04/30/2007             6/29/2007               60
           2006        Q1 2008          04/30/2008             5/16/2008               16
           2007        Q1 2008          04/30/2008             5/16/2008               16

      In accordance with the 2005 Grant Guidance, obligations and expenditures
      must be reported to Office of Domestic Preparedness on a quarterly basis
      through the Financial Status Report, within 45 days of the end of each
      calendar quarter. The grant guidance for FY 2006 and 2007 require the
      Financial Status Reports be submitted within 30 days of the end of each
      calendar quarter. In addition, the Code of Federal Regulations Title 28
      § 66.20, Standards for financial management systems, require grantees to
      maintain accurate, current, and complete disclosure of the financial results
      of financially assisted activities, and in accordance with the financial
      reporting requirements of the grant or subgrant.

      According to State Administrative Agency officials, untimely reporting of
      financial status reports was, in part, due to limited staff within its
      organization. At that time, the day-to-day fiscal responsibilities were
      transferred from the Maryland Military Department’s Fiscal Services
      Division to the Maryland Emergency Management Agency’s Grants
      Office. This transfer eliminated adequate segregation of duties to ensure
      that the financial activities were accurately accounted for and reported,
      because the agency making the expenditures was also preparing the status
      reports. As a result, the Maryland Emergency Management Agency was
      at risk of future grant funds and drawdowns being withheld, which could
      affect its emergency preparedness and incidence response readiness.

      According to agency officials, the fiscal responsibilities for filing the
      Financial Status Reports were transferred back to the Maryland Military
      Department as of March 2008. Because the State has taken action to
      resolve the problem, no recommendation is being made at this time.

   The State of Maryland’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007

                                      Page 17
       Management Comments and Auditor’s Analysis
                At the exit conference, the FEMA Grant Programs Directorate
                officials verbally concurred with the finding.

                Maryland Emergency Management Agency officials also agreed
                with the finding at the exit conference, but did not provide written
                comments since there was no recommendation.


Subgrantee Monitoring Requirements Not Enforced or
Documented
       The State Administrative Agency did not enforce requirements for
       subgrantees to submit to the grantee their quarterly financial and
       performance reports, nor document subgrantee performance and progress
       towards program goals. The State Administrative Agency implemented its
       monitoring program in 2006 when the Grants Coordinator position was
       filled. However, the State did not enforce the subgrantee requirements
       established under its monitoring program. As a result, the State
       Administrative Agency did not ensure that its subgrantees program goals
       were being achieved and that funds were being expended as intended for
       FYs 2005 through 2007.

       Code of Federal Regulation Title 28 § 66.40, Monitoring and reporting
       program performance, requires grantees to be responsible for managing
       the day-to-day operations of grant and subgrant supported activities that
       cover each program, function, or activity. The Code of Federal Regulation
       also requires that grantees must monitor grant and subgrant-supported
       activities to assure compliance with applicable federal requirements and
       that performance goals are being achieved.

       The Memorandum of Agreement between the State Administrative Agency
       and its subgrantees includes requirements for the subgrantees to submit
       quarterly financial and performance reports for all Department of
       Homeland Security grants in effect during the reporting period. The State
       Administrative Agency’s Grant Monitoring Site Visit Protocol states that
       site visits will encompass open grants and the most recently closed grants.
       The protocol also states that site visits will include a review of the
       requested documentation and a discussion of program progress.

       Although the Memorandum of Agreement between the State
       Administrative Agency and subgrantees stipulates that subgrantees are to
       submit quarterly financial and performance reports, the requirement to
       submit performance reports was not enforced and the financial reporting

    The State of Maryland’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                       Page 18
      requirement was not consistently enforced. Our review of the site visit
      monitoring reports showed that the lack of submission of the performance
      reports by the subgrantees was not discussed in the site visit monitoring
      reports.

      State Administrative Agency officials cited multiple reasons for not
      consistently enforcing the quarterly financial and performance reporting
      requirement including:

      �	 Subgrantees typically have no activity to report in the first year of the
         grant award because procurement requirements delay reimbursement
         requests. Some subgrantees opt to bundle their reimbursement
         requests to minimize paperwork.
      �	 Limited staff hindered the State’s ability to conduct active follow-up
         of delinquent reports. Similarly, subgrantees with limited staff were
         also hindered in their ability to report timely.

      According to State Administrative Agency officials, reimbursement
      requests were used as a tool to judge subgrantees’ performance and timely
      project execution. However, reviewing program spending does not ensure
      that program goals and objectives are achieved. In addition, we noted
      during our review that because some subgrantees delayed submitting
      reimbursement requests, tracking subgrantee expenditures as a means to
      provide oversight was an ineffective method for monitoring progress.
      Furthermore, only one individual was responsible for monitoring 26 local
      jurisdictions, 11 State Agencies, Nongovernmental Organizations and over
      50 subgrantee projects implemented under the Urban Areas Security
      Initiative grant program.

      Our review of the site visit monitoring reports maintained by the State
      Administrative Agency showed that the State Administrative Agency did
      not document the status of the subgrantees performance and progress
      made toward achieving their grant goals as required by the State
      Administrative Agency’s Grant Monitoring Site Visit Protocol.
      According to Agency officials, site visit reports focused on the fiscal
      status of subgrantees because metrics have not been provided by FEMA to
      assess program progress.

      Lastly, the site visits conducted of the local jurisdiction subgrantees during
      FYs 2006 and 2007 included a review of the closed grants that were
      awarded during FYs 2003 through 2005, and only the expenditures that
      had been reimbursed, as of the date of the site visit, for the FYs 2006 and
      2007 open awards. However, the State Administrative Agency does not
      require that reimbursement requests be submitted timely. The State’s
      ability to adequately monitor subgrantees’ projects and achievement of

   The State of Maryland’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007

                                      Page 19
      their program goals is diminished when the subgrantees delay 

      reimbursement requests. 


      Because the State Administrative Agency did not consistently enforce the
      financial and performance reporting requirements, and did not document
      the status of subgrantees’ performance during site visits, the State was
      unable to assure compliance with federal regulations with respect to its
      responsibility to provide day-to-day management oversight.

      Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the Maryland Emergency
               Management Agency to:

               Recommendation #4: Improve its subgrantee monitoring
               practices by:

               �	 Enforcing the requirements in the Memorandum of Agreement
                  requiring subgrantees to submit quarterly financial and
                  performance reports, and
               �	 Incorporating specific procedures into its monitoring site visit
                  protocol to document subgrantee progress towards
                  accomplishing program goals.

      Management Comments and Auditor’s Analysis
               At the exit conference, the FEMA Grant Programs Directorate
               officials verbally concurred with the finding and recommendation.

               In written comments, the Maryland Emergency Management
               Agency agreed with the finding and recommendation, attributing
               delays in submission of reimbursement requests to the lengthy
               approval process of the jurisdictional governing bodies. The State
               agency also said that it has expanded the roles and responsibilities
               of the Grant Program Managers to include regular contacts with
               the subgrantees to ensure progress toward achieving program
               goals.

               If properly implemented, the Maryland Emergency Management
               Agency’s planned actions will address the intent of this
               recommendation. The recommendation will remain open until the
               actions are fully implemented.



   The State of Maryland’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007

                                      Page 20
                Within 90 days, the Administrator, Federal Emergency
                Management Agency, needs to outline corrective actions and a
                plan to implement the actions in response to the recommendations.


Reimbursements Not Supported by Invoices
       During our review of expenditures for reimbursement, we noted that over
       $54,000 in expenditures were reimbursed under the State of Maryland’s
       Homeland Security Program, but were not properly supported with
       required documentation. Purchase orders were the only support provided
       in some instances, instead of the required third party invoices. For larger
       reimbursement requests with a significant number of expenditures, all
       documentation had not been provided at the time the request was
       processed for payment. Table 4 below shows $54,313.72 in expenditures
       that we identified as unsupported during our review:

                                                 Table 4

                   Maryland Homeland Security Grant Program Awards
                                 Fiscal Years 2005 through 2007

                  Expenditures Not Supported by Documentation
          Grant Year Jurisdiction          Vendor           Amount
            FY 2005            Howard          Global Protection                 $ 4,148.25
            FY 2005            Howard          Highway Info. Systems                 750.00
            FY 2005            Howard          LPB                                 1,995.00
            FY 2005            Howard          Columbia Telecom. Corp.             2,383.30
                                               Howard County Dept. of
            FY 2005            Howard                                            40,225.92
                                               Fire & Rescue
            FY 2005            Howard          Columbia Telecom. Corp.            4,760.25
            FY 2006            Howard          Aero Company                          51.00
                                                         Total                 $ 54,313.72

       In accordance with Code of Federal Regulations Title 28 §66.20,
       Standards for Financial Management Systems, grantees and subgrantees’
       financial accounting records must be supported by such source
       documentation as cancelled checks, paid bills, payrolls, time and
       attendance records, and contract and subgrant award documents. Without
       proper supporting documentation, there is an increased risk of
       unauthorized or unsupported expenditures being incurred or reimbursed.




    The State of Maryland’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                       Page 21
      Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the Maryland Emergency
               Management Agency to:

               Recommendation #5: Obtain and provide the supporting
               documentation for the $54,313.72 we identified in unsupported
               reimbursed expenditures. If unable to provide the appropriate
               documentation, reimburse FEMA for the unsupported
               expenditures.

      Management Comments and Auditor’s Analysis
               At the exit conference, the FEMA Grant Programs Directorate
               officials verbally concurred with the finding and recommendation.

               In its written comments, the Maryland Emergency Management
               Agency said that documentation was provided to the auditors
               during fieldwork to support the questioned amounts. However, we
               determined that this documentation was not sufficient to support
               the amounts claimed for reimbursement.

               Subsequent to the issuance of the draft report, additional
               documentation was provided by the Maryland Emergency
               Management Agency to the auditors, which resulted in the
               reduction of the questioned amounts to $46,369.17. The State also
               agreed to provide FEMA with the supporting documentation for
               the remaining reimbursements.

               The proposed action by Maryland Emergency Management
               Agency, if achieved, would resolve this recommendation.
               However, the recommendation will remain open until the action is
               fully implemented. Within 90 days, the Administrator, Federal
               Emergency Management Agency, needs to outline corrective
               actions and a plan to implement the actions in response to the
               recommendations.




   The State of Maryland’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                      Page 22 

Appendix A
Purpose, Scope, and Methodology

                       The objective of the audit was to determine whether the State of
                       Maryland distributed and spent State Homeland Security Program
                       and Urban Areas Security Initiative grant funds strategically,
                       effectively, and in compliance with laws, regulations, and
                       guidance. The goal of this audit was to identify problems and
                       solutions to help FEMA and the State of Maryland improve the
                       nation’s ability to prevent and respond to all-hazards on a local as
                       well as statewide level. The audit further enabled us to answer the
                       following nine researchable questions:

                       �	   Were measurable goals developed from plans?
                       �	   Do funded plans link all-hazards response capabilities to goals?
                       �	   Were funds and resources distributed based on goals?
                       �	   Does the State accurately measure risk?
                       �	   Does the State measure response capability?
                       �	   Can the State demonstrate improved performance?
                       �	   Were grants administered compliantly?
                       �	   Did the State monitor grant programs?
                       �	   What innovative practices can be used by other States?

                       The scope of the audit included the following grant programs,
                       described in the background section of this report:

                       �	 FY 2005 State Homeland Security Program and Urban Areas
                          Security Initiative
                       �	 FY 2006 State Homeland Security Program and Urban Areas
                          Security Initiative
                       �	 FY 2007 State Homeland Security Program and Urban Areas
                          Security Initiative

                       The audit methodology included work at FEMA Headquarters,
                       State of Maryland offices responsible for the management of the
                       grants, and various subgrantee locations. To achieve our audit
                       objectives we analyzed data, reviewed documentation, and
                       interviewed the key state and local officials directly involved in the
                       management and administration of the State of Maryland.

                       We conducted 20 site visits and held discussions with the
                       appropriate officials from four State agencies that were awarded
                       State Homeland Security Program Grants, in order to determine
                       whether grant program funds were expended according to grant
                       requirements and priorities established by the State of Maryland.
                       We conducted site visits of the following 20 subgrantee
                       organizations:

               The State of Maryland’s Management of State Homeland Security and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                              Page 23 

Appendix A
Purpose, Scope, and Methodology

                       Local Jurisdictions

                       �    The City of Annapolis
                       �    Baltimore City
                       �    Ocean City
                       �    Anne Arundel County
                       �    Baltimore County
                       �    Calvert County
                       �    Carroll County
                       �    Harford County
                       �    Howard County
                       �    Montgomery County
                       �    Prince George’s County

                       State Agencies

                       �    Maryland Emergency Management Agency
                       �    Maryland Department of Transportation
                       �    Maryland State Police

                       Non-Governmental Organizations

                       �    Beth Israel Congregation
                       �    Greektown Community Development Center
                       �    Har Sinai Congregation
                       �    Ner Israel Rabbinical College
                       �    Owens Brown Interfaith Center
                       �    Temple Oheb Shalom

                       At each location, we interviewed responsible officials, reviewed
                       documentation supporting the State of Maryland and subgrantee
                       management of the awarded grant funds (including expenditures
                       for equipment, training and exercises), and physically inspected
                       some of the equipment procured with the grant funds.

                       We conducted the audit between December 2008 and July 2009,
                       according to Government Auditing Standards as prescribed by the
                       Comptroller General of the United States (Yellow Book-2007
                       Revision). Those standards require that we plan and perform the
                       audit to obtain sufficient, appropriate evidence to provide a
                       reasonable basis for our findings and conclusions, based on our
                       audit objectives. We believe that the evidence obtained provides a
                       reasonable basis for our findings and conclusions, based on our
                       audit objectives.
           The State of Maryland’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                              Page 24 

Appendix A
Purpose, Scope, and Methodology

                       Although this audit included a review of costs claimed, we did not
                       perform a financial audit of those costs. This was a performance
                       audit as defined by Chapter 1 of the Standards, and included a
                       review and report of program activities with a compliance element.
                       Regis and Associates PC was not engaged to, and did not perform
                       a financial statement audit, the objective of which would be to
                       express an opinion on specified elements, accounts, or items.
                       Accordingly, we were neither required to review, nor express an
                       opinion on, the costs claimed for the grant programs included in
                       the scope of the audit. Had we been required to perform additional
                       procedures, or conduct an audit of the financial statements in
                       accordance with generally accepted auditing standards, other
                       matters might have come to our attention that would have been
                       reported. This report relates only to the programs specified and
                       does not extend to any financial statements of the State of
                       Maryland.

                       Although the audit was being performed and the report was
                       prepared under contract, the audit results are being reported by the
                       DHS Office of Inspector General to appropriate FEMA and State
                       of Maryland officials.




           The State of Maryland’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                              Page 25 

Appendix B
Management Comments to the Draft Report



                                                      STATE OF MARVLAND
                                                     M1LITARV DEPARTMENT




      MARTIN O'IMU..EV                                                                                      IN.lES A. ADKINS
          ~,~
                                                                                                            ~AG""'ow..
                                                                                                        _    AIl.U'fANl" G£HEow..
     AmHONV G, 8<'lOWN
     U£<JT'£IWtr O<WE"""'"                                                                                  AICHAAO G, Iollffi<
                                                                                                                .~

                                 MARYLAND EMERGENCY MANAGEMENT AGENCY
                                SIat<I Emergenq' ~ralions Cenl",. Ca"'l' Fretterd M'''", Fleservalion
                                           S-01 R"" Saln1 Lo Drive. F\ei$ter>lown. MO 21136
                                    1410) S17-3600. Fax (410) 517·3610' Toll Free 1 (8n) 636-2872
                                                    TTV U...IS: 1 (800) 735-2:258

                                                      December 18, 2009
          Mr. Lateef Abassi
          Regis & Associates. PC
          1400 Eye Street NW, Suite 425
          Washington, DC 20005

          Dear Mr. Abassi,

          This memorandum has been prepared in response to the findings and recommendations detailed
          within the Department of Homeland Security Office of [nspeetor General Report tilled, "The
          Slate of Maryland's Managemenl of State Homeland Security Program and Urban Area Security
          Initiative GranlS Awarded During Fiscal Years 2005 through 2007". The report consists of six
          finding:;; and five recommendations. Each will be addressed below.

          Finding #1: State Grant Management Practices Were Generally EjJecti1'C. BUI some
          Improw;menrs Needed
          Response: Each noted area will be discussed below; however, we disagree with the lcnor and
          lone of this section as it implies thaI the areas reported upon were of a recurring systemic nature
          when in several inslances they were restricted to a single incident, grant or jurisdiction.

                Strategic Planning Proce.\·.~ IVa'!" Not Comprehcn.\·ive:
               )- Slate ojMaryland's Ilome/and Security Slralegy is oUldated
               )1> Slate ojMaryland 'sllome/and Securily StraJegy lacked Measurable Goals and
                   Objecti"es
               )- No process to Update SlraJegy or IncorporalC Local Input
               )- State Has No process to co/lecl or Analyze Performance Dala

          Noll:: During Ihc Agency oul briefing you agreed to consider the rewording of the above bullets.
          Suggeslions follow.:
             )- Siale ojMaryland 'sllome/and Security Strategy Is Outdaled
             )- Stale ojMaryland's Homeland Security Strategy Lacked Fully Measurable Goals and
                 Objec/fI'Cs
             :0. Pracess 10 Updale Slrategy or Incorporale Local Input Requires lmprol'emenl
             )1> Process to Collect or Analyze Performance Data Requires Updating and Refinemenl


                                                                  ,




                 The State of Maryland’s Management of State Homeland Security and 

          Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                                              Page 26 

Appendix B
Management Comments to the Draft Report




        Recommendation II I: Implement a strategic planning pracess Ihat:
               • Establishes aformal process to periodicaffy update the Slrategic plan to include
                   new priorities.
               • Incorporates specific measrlrable and results-<lriented objecliws into Ihe updated
                   strategy. with each objective including a performance measure 10 track progress
                  for achieving the goals.
               • Incorporates local input into the strategy. and
               • Ensures that appropriate performance data is collected, measured. and analyzed
                   to demonstrale progress towards achieving goals and objectiws.

        Response: Concur with comment. We concur that a successful homeland security program must
        be based upon a strategy that is current and relevant. To this end, the state strategy was recently
        revised and updated to reflect changing homeland security conditions and requirements within
        Maryland. The strategy was submitted for FEMA review on November 4, 2009, and approved
        on November 19, 2009. This was a self initiated action. Prior to its completion the SAA was in
        full compliance with all FEMA requirements associated with strategy submission. review, and
        update. Both the previous and current strategy were formatted as prescribed by FEMA to reflect
        goals. supporting objectives and implementing steps. The report notes that the "State of
        Maryland's Homeland Security Strategy lacked measurable goals and objectives." This
        statement is supported by citing specific objectives from the previous state homeland security
        strategy. Strategic goals and objectives are by their very nature broadly stated. Measurable
        performance metrics are normally found within the implementing steps associated with each
        objective. The report fails to note that each of the objectives cited for inadequate metries. e.g.,
        "Implement a statewide health and medical surge plan" is further supported by multiple
        unmentioned implementing steps which provide the specificity of actions lacking in the
        ovcrarching goals and objectives. (E.g. "By January I, 2008, complete county plans identifying
        altcmate care sitL'S and locations of ....caches of equipmcnt.'·) It is within these implementing
        steps that planners detail actions that are Specific, Measurable, Achievable, Rcsults-Oricnled and
        Time-Limited. Omitting implementing steps from the report fails to convey the full scope of
        activities to be undertaken. The adequacy of the state strategies. both past and present is
        supported by FEMA 's review and approval ofthcm.

           This agency agrees that one of the most significant cha1len b'CS faced in implementing an
        effective homeland security strategy is developmenr and employment of measurable goals and
        objectives. We have attempted to do so by linking each reported goal to the National Priorities
        as established by FEMA. While FEMA has strived to provide additional means and methods to
        measure program progress (E.g.. the Cost to Capahilities program) to dale many of these
        programs remain in the development phase. It is unrealistic to impose upon the state standards
        and expectalion, nOl yet fully defined al the federallevcl nor dictated within implementing
        program guidance. This agency will continue to strive to improve and validale goals and
        objectives to assess program performance, yet it is imperative for this effort 10 be fully successful
        that ongoing parallel federal initiatives come to fruition.

        This agency disagrees with the observation that the previous or current state homeland security
        strategy, "was not updaled to incorporate local input", The SAA maintains a continuous
        dialogue with its sub-grantees to ensure funds are used to address common goals and objectives.

                                                          2




              The State of Maryland’s Management of State Homeland Security and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                                      Page 27 

Appendix B
Management Comments to the Draft Report




        niI_
         _
                         t   ._,..._Ia
                              :.:7_'
                                       ........_. . . . ".
                                                 "'=-'":.i..~5_:;:;:""..:.
                                                                                                                                01. . '
                                                                                                                                ~     __-:...
                                                                                                                                                          "



         DHS.
                 !II!    t
                     ~iIpIII
                                 w.,IoaoI_"'_ ......10_.............
                                    __
                                                       ............
                                                          '   [           5
                                                                                             ~                              ~
                                                                                                                             J
                                                                                                                                       'rt 'bp
                                                                                                                                      "F              •




             • .
         _ _ o ( ~ _..
                        'lJl'. . _iIollol<Dolml.....,. Ii"
                                                                          =,..•"                     i

                                                                                                         "~I        .--..<Jl__ nil"
                                                                                                                  ..... -   'l1,l4alA'-.
         _w.                            ~oioiII,..,.....                                     ...,.       oj        , ........ -.l.o<ol~fIIIt
         ........ _         toor"'Fl'O" .... ...,..d ..... _  01'_ - . . wIIIIlo._



                                                                                                                            )_·_t .,
         ~_ot[4            ;>;lily.n..._ • r d".ofjllrl'l! 'mol .........
         ~lo       _ _ l\l>f_-..loo                                                                                                                   ~


         AloolboDt.-m'Iot:.... _ .. : =~                pro  1ood 1m' _ _ •            .. __
         • ,"      ·>lo-eoly~oa:oI=otlk>ool_
         ,........ ..... _n.               Ii 1OCIb7                                                                            ~_




         " , , " * _ .. _011) . ,.. . . _ .....                                                                --.~_of_
              4' ' .. _
         _ _ _ .........
                                     ii_iii" 01_ _ ..
                                                 it   _ _
                                                                                       m,
                                                                                                              t      _ _        "1            J_                   _
                 5               WblIo . . _........,._                                                                                       ,· I
         _ _ . _ . . . - , .                                                                                                    ~ t   to                      ..




         ................                   It            • .-_                                           , - .. . . .            'r' '''-DtlS
         . . . . . . . . . . . . . JOK.

         'nIo     . . . . . . . . . . s.u.'W.
         TIIo _ _ ...........                                         , ·T ... _ ... .. n                "5''''_                ~                         '
         ::'" n;os.v.:--..:
         :."n;1M
         _ _ __. "
         _ _ .--.
                            ..    1oo
                                        5    :..:. . .



                                             •   5
                                                              ~~....,"'-:,io_
                                                                  -_"_"'-":'
                                                                  _
                                                                             :...:..:..
                                                              ~~"".-:,._"':"':':"       .... (JlI')
                                                                                         OSI')
                                                                                       ....... _                  "'-' 1    "             •       ""'
                                                                                                                                                              . . . . .




         .
         .....
             .__ " ' - ' ""' ,                                          ' Iy _
                                                                        h     ••       _ _ (IlSlIJ. ,
                                                                                   .... _
                                                                                       ~~  _        , f"
                                                                                                       ' .
         ___
         ___                              . , , _ ..'
                                 "'-'~""01l_,.S                      iio...
                                                                        l i o_ _ - . .__ o I01lIL
                                                                                                lL
         n.o-' .... .
                    ... -..........
                        -           .._ .         ...
                                                                                         _lo.
         11lo-"
         _ _ CMoot_'v"
                                ~
                                    "'-'._.......
                     Ca*al'I'_,ol'<7'. ltf6fM.
                                             2tf6f,._ 11"",11 ..... _ _ "
                                                                                  lo,.,
                                                                               . .,'   _
                                                                                                  •                                               F                 ..




         -
             , :: "D1a_...-.......
            - . .. DHS lo           lbo 15S1', 1J5II.. . . CAn. I'
         --'.DHJIo-",,_lbo_,Il5II.,_CAn.,
          ,," "DHS. . . . . . -. . . . .tio_lolo
         ,,
                                         ..                     ,i E
                                                                     E·          .
                                                                                 .. ,$.'
                                                                                    ........
                                                                                    ___
                                                                                              'wIIIo
                                                                                         M' 'wfIIo

         i

         ".
             :

         "._ _=~..,.t&o..I I ' __01
                       .'IIIl~.' ••••••                                                                           .'.11 ..........._,
                                                                                                                  '.·.11   . ,.--....
         •_ _ .Jw-1"-"" ,..,-./t;.... •                          .........,""'" ",1lIo:hMo .... ~
         ~1bo                    ................. la:mal~.. opdolO1lIo_ .• _ _ l)I
         s_. 'noIoOllloilod .. lhe _ _ .,.....otlllo _ _ ""... __
         cd,..                                                                                   __ cd__....
                                                                                                    _cd_1Ml
                                                                                                                                          of~
         ~
                                             .
                                                      _
                                                              ~
                                                                                   I
                                                                                         O
                                                                                                                                              ~
                        ·!   '   ......     ~IbodioII_                                        ............
         .'
         -   -
               -~
               ..........IIo<WIoJ.Jl*II-   ~._".,,-frrl'
                                                          _ ... ' *" '" '._..
                                                       .".w.....".
                                                                .....
         • ,     n.o _ _ -.cl1_or~ 'j h• • ' "
         _._
         _    "'" ' _•     __     110.
                              • I'EWA    r    •,         n.o_
                                                              ,       10
                                                                      t                .,--....."'.',.;;;;0:'-....-.
                                                                                              •



              The State of Maryland’s Management of State Homeland Security and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                                                                        Page 28 

Appendix B
Management Comments to the Draft Report




       • Incorporates local input into the $frategy. and
       Response: Loeal input was and will continue to be sought to support creation and execution of
       homeland security grant goals and objectives. See earlier discussions of the varied avenues used
       to achieve this goal.
       • Ensures that appropriate performance data is coUeeted. measured. and analyzed to
       demonstrate progress towards achieving goals and objectives.
       Response: Data will continue to he collected to measure program expenditures and to ensure
       compliance with existing Federal reporting requirements. The current absence ofdetailed
       federal standards places the burden on individual states to develop performance data relevant to
       their respective needs and capabilities.

        Finding 112: FY 2005 Financial Status Reports were inaccurate
        Recommendation #2: Determine the appropriateness ofthe State matching share for the FY
        2005 Emergency Management Performance Grant. If the State is unable 10 substantiate the
       appropriateness ofits matching sharefor FY 2005. reimburse F£MA $1.014. 763for the federal
       funds drawn down in excess ofthe State's share ofthe costs.

        Response: Non-concur. The Maryland Military Department has reviewed the appropriateness
        of the State matching share for the FY 200S EMPG grant and determined that the recipient share
        of outlays (i.e. State matching funds) totaled 53,803,127 as documented in the auached amended
        final FSR for the FY 200S HSGP funds. The State matching amount exceeds the required FY
        200S EMPG matching requirement of$3,242,045 by $561 ,082.

        Recommendation #3: Submit corrected Financial Status Reportsfor the FY 2005 Homeland
        Security Grant Program.

        Response: Concur. The Maryland Military Department has submiucd an amended final FSR for
        the FY 2005 Homeland Security Grant program. See attached correspondence and
        documentation.

        Finding #3: Quarterly Financial Status Reports Were NOI Submilled 1l"mely

        No recommendation/No Action required

        Finding #4: Sub gramee Monitoring Requirements Not Enforced or Documented
        Recommendation #4: Improve its sub grantee monitoring practices by:

       • Enforcing the requirements in the Memorandum ofAgreement requiring sub gran lees to submit
       quarterlyfinanCial and performance reports. and

       Response: We concur with the sub-grantee reporting deviations outlined within the report.
       With the adoption of an on-line real time grants management system the requirement to submit
       quarterly financial reports was suspended. Efforts will continue to encourage timely reporting
       for those grants where this requirement exits.


                                                      ,




              The State of Maryland’s Management of State Homeland Security and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                                   Page 29 

Appendix B
Management Comments to the Draft Report




       Comments on the delayed submission ofrcimburscment requests after grant award is accurate
       for some jurisdictions, however delay is often a factor in the lengthy approval process required
       by jurisdictional governing bodies. In several cases the length of time between grant award and
       authorization to expend funds exceeds six months this is driven by public notice requirements,
       council pre-review requirements, and a host ofother administrative requirements. Additionally,
       once approval is received local procurement policies and requirements may introduce lengthy
       delays especially for large purchases. Most jurisdictions once purchases arc invoiced submit
       reimbursement requests quickly to preclude the jurisdiction having to front dollars from general
       funds. Jurisdictions which have shown unusually lengthy delays are contacted and offered
       assistance to expedite the reimbursement of grant funded purchases.

       • Incorporating specific procedures into its monitoring site visit protocol to document sub
       grantee progress towards accamplishing program goals.

        Response: Early monitoring visits focused on records maintenance and equipment tracking.
        Program progress was measured in the timely execution of approved spending plans. While this
        process provides valuable insight into sub-grantcc progress and program effectiveness, this
        Agency has undertaken to expand the roles and responsibilities of Grant Program Managers.
        Among Ihe major tasks assigned to these individuals is to ensure sub-grantees incorporate
        national, state and regional goals into local and state agency grant programs. In tum through
        regular contact they will ensure progress toward achieving these goals is tracked and reported.
        Development of specific metrics remains an ongoing process.

       Finding #5: Reimbursements Not Supported by Invoices
       Recommendation #5: Obtain and provide the supporting documentation/or the $54,3/3.72 we
       identified in unsupported reimbursed expenditures. /funable 10 provide the appropriate
       documentation. reimburse FEMA/or the unsupported expenditures.

       Documentation for the listed vendors was previously provided to the audit tcam during the
       course of their visit with the exception ofone expense. Subsequent exchange of additional
       documentation over the past week has reduced the reported $54.313 to a lower fib'1lfC and efforts
       will continue in the period priOf to report finalization to reduce this total to $0. Prior to the start
       of this audit, members of the SAA staff had verified through review ofcounty accounting
       records that all claimed expenditures were paid and that the questioned equipment and supplies
       were available fOf inspection. While desirable, there is no absolute Federal requirement that an
       invoice be available prior to reimbursement being made. The issue of accepting purchase orders
       in lieu of invoices is moot. The SAA does not approve for payment any reimbursement request
       without an accompanying invoice(s) and conducts a 100"10 review of all reimbursement requests
       to ensure compliance. This policy has been in effect since the beginning of Federal Fiscal Year
       2006. !fthis finding is camed over into the final report this agency is prepared to provide
       FEMA representatives with sufficient documentation to support the appropriateness of the
       reimbursed expenditurcs.




                                                          5




              The State of Maryland’s Management of State Homeland Security and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                                       Page 30 

Appendix B
Management Comments to the Draft Report




        If fUnber qlJeltions wise l"qIJ1tiDa1he above fCSJIODIeS, do not hesitate to contact my Grants

        ......
        CoordinAtor, Gary Harrity It (410) 517-5116 01' Bharrib@mcma.stJtA.md.us. We ItIDd ready to




                                                           Qy ) frY[ u:J!r
                                                                  Richard Mulh
                                                                  &ccutivc Di.roctor
                                                                  Mc>Imd-'
                                                                   MvwgtmmtA~




                                                       •




              The State of Maryland’s Management of State Homeland Security and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                                   Page 31 

Appendix C
Organization Chart


                   Maryland Emergency Management Agency

                                                              Director



                                                                                                      Public Info Office
                    Admin Officer

                                                                          Chief of Staff

                   National Capital
                   Region Liaisons                                                                    Special Projects
                                                                                                        Coordinator



                   Deputy Director                                                  Acting Deputy Director of
                     Operations                                                          Administration



  Admin Officer




    Acting Chief                      Acting Chief of                    Grants Manager                   Interoperability
   Preparedness                        Operations                                                             Manger
      Officer


         Exercise and                        State Emergency             Grants Division                   Technology
       Training Manager                      Operations Center                                              Support
                                                Operations


          Exercise and                      Critical Infrastructure
        Training Division                          Program
                                                                          Law Fellows                 Admin and Logistics
        Mitigation and                       Regional Program
       Recovery Division


       Planning Division                      Acting Manager
                                              Maryland Joint
                                             Operations Center


                                              Maryland Joint
                                             Operations Center




                 The State of Maryland’s Management of State Homeland Security and 

          Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                                          Page 32 

Appendix D
Report Distribution


                       Department of Homeland Security
                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       General Council
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs

                       Federal Emergency Management Agency

                       Administrator
                       Assistant Administrator, Grant Programs Directorate
                       Federal Emergency Management Agency Audit Liaison
                       Grant Programs Directorate Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




               The State of Maryland’s Management of State Homeland Security and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                              Page 33
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
